TN
roan  CSOCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL, PETITIONER
v.
AGNES MORRISSEY-BERRU

ST. JAMES SCHOOL, PETITIONER
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF KRISTEN BIEL

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICI CURIAE OF
VIRGINIA, CALIFORNIA, COLORADO, CONNECTICUT, DELAWARE, THE DISTRICT OF
COLUMBIA, ILLINOIS, MASSACHUSETTS, MICHIGAN, MINNESOTA, NEVADA, NEW
JERSEY, NEW YORK, OREGON, RHODE ISLAND, VERMONT, AND WASHINGTON IN
SUPPORT OF RESPONDENTS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 8602 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1 Ith day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ena] Kerse. 0. Lao Ondine Ohl

My Comm. Exp. September 6, 2023 -
Notary Public Affiant

 

39458
